No. 20-510
IN THE

bu,pretne Court of the einiteb Otateo
IQVIA INC.,
Petitioner,
v.
FLORENCE MUSSAT, M.D. S.C., on behalf of itself
and all others similarly situated,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,000 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 23, 2020.

- tib
Colin Casey I1'ogan
Wilson-Epes Printing Co., Inc.

